  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




   HEALTHNOW NEW YORK, INC.,
 DID NOT CLAIM SOME ALLOWABLE
MEDICARE PART B PENSION COSTS FOR
 FISCAL YEARS 2007 THROUGH 2009


    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Patrick J. Cogley
                                                 Regional Inspector General

                                                        October 2013
                                                        A-07-13-00426
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                at https://oig.hhs.gov/

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

  HealthNow did not claim allowable pension costs of approximately $23,000 for Medicare
  reimbursement for fiscal years 2007 through 2009.


WHY WE DID THIS REVIEW

Medicare contractors are eligible to be reimbursed a portion of their pension costs, which are
funded by the annual contributions that these contractors make to their pension plans. The
amount of pension costs that the Centers for Medicare & Medicaid Services (CMS) reimburses
to the contractors is determined by the cost reimbursement principles contained in the Federal
Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts. Previous
Office of Inspector General reviews found that Medicare contractors did not always comply with
Federal requirements when claiming pension costs for Medicare reimbursement.

The objective of this review was to determine whether HealthNow New York, Inc. (HealthNow),
complied with Federal requirements when claiming pension costs for Medicare reimbursement
for fiscal years (FYs) 2007 through 2009.

BACKGROUND

HealthNow administered Medicare durable medical equipment regional carrier and Part B
operations under cost reimbursement contracts with CMS until the contractual relationships were
terminated on June 30, 2006, and August 31, 2008, respectively. The effective segment closing
date for the Medicare Part B segment was January 1, 2009. This report addresses the allowable
pension costs for HealthNow’s Medicare Part B segment.

WHAT WE FOUND

HealthNow claimed pension costs of $65,915 for Medicare reimbursement; however, we
determined that the allowable CAS-based pension costs during this period were $89,266. The
difference, $23,351, represented allowable Medicare pension costs that HealthNow did not claim
on its Final Administrative Cost Proposals (FACPs) for FYs 2007 through 2009. HealthNow did
not claim these allowable Medicare pension costs primarily because it incorrectly calculated the
CAS pension cost for FY 2007.

WHAT WE RECOMMEND

We recommend that HealthNow revise its FACPs for FYs 2007 through 2009 to claim additional
Medicare pension costs of $23,351.




HealthNow New York, Inc., Pension Costs Claimed (A-07-13-00426)                                i
AUDITEE COMMENTS

In written comments on our draft report, HealthNow agreed with our findings and stated that it
would net our recommendation with other amounts due to and from the Federal Government
during its global settlement of outstanding audits.




HealthNow New York, Inc., Pension Costs Claimed (A-07-13-00426)                                  ii
                                                     TABLE OF CONTENTS


INTRODUCTION .......................................................................................................................... 1

           Why We Did This Review .................................................................................................. 1

           Objective ............................................................................................................................. 1

           Background ......................................................................................................................... 1
                 HealthNow New York, Inc. .................................................................................... 1
                 Medicare Reimbursement of Pension Costs ........................................................... 1

           How We Conducted This Review....................................................................................... 2

FINDING ........................................................................................................................................ 2

           Claimed Pension Costs ....................................................................................................... 2

           Allowable Pension Costs Not Claimed ............................................................................... 2

RECOMMENDATION .................................................................................................................. 3

AUDITEE COMMENTS................................................................................................................ 3

APPENDIXES

    A: Audit Scope and Methodology ............................................................................................ 4

    B: Federal Requirements Related to Reimbursement
       of Pension Costs................................................................................................................... 6

    C: Allowable Medicare Part B Pension Costs for
       HealthNow New York, Inc., for Fiscal Years 2007 Through 2009 ..................................... 7

    D: Auditee Comments............................................................................................................... 9




HealthNow New York, Inc., Pension Costs Claimed (A-07-13-00426)                                                                                  iii
                                            INTRODUCTION

WHY WE DID THIS REVIEW

Medicare contractors are eligible to be reimbursed a portion of their pension costs, which are
funded by the annual contributions that these contractors make to their pension plans. The
amount of pension costs that the Centers for Medicare & Medicaid Services (CMS) reimburses
to the contractors is determined by the cost reimbursement principles contained in the Federal
Acquisition Regulation (FAR), Cost Accounting Standards (CAS), and Medicare contracts.
Previous Office of Inspector General reviews found that Medicare contractors did not always
comply with Federal requirements when claiming pension costs for Medicare reimbursement.

OBJECTIVE

Our objective was to determine whether HealthNow New York, Inc. (HealthNow), complied
with Federal requirements when claiming pension costs for Medicare reimbursement for fiscal
years (FYs) 2007 through 2009.

BACKGROUND

HealthNow New York, Inc.

HealthNow administered Medicare durable medical equipment regional carrier (DMERC) and
Part B operations under cost reimbursement contracts with CMS until the contractual
relationships were terminated on June 30, 2006, and August 31, 2008, respectively. 1 The
effective segment closing date for the Medicare Part B segment was January 1, 2009. This report
addresses the allowable pension costs for HealthNow’s Medicare Part B segment.

Medicare Reimbursement of Pension Costs

CMS reimburses a portion of the Medicare contractors’ annual pension costs, which are funded
by contributions that these contractors make to their pension plans. To be allowable for
Medicare reimbursement, pension costs must be (1) measured, assigned, and allocated in
accordance with CAS 412 and 413 and (2) funded as specified by part 31 of the FAR.

Beginning with FY 1988, CMS incorporated specific segmentation language into Medicare
contracts that requires contractors to use either an allocation method or a separate calculation
method to identify and claim pension costs for Medicare reimbursement. Under the allocation
method, the contractor determines total plan CAS-based pension costs and allocates a share to
Medicare. Under the separate calculation method, the contractor separately identifies the
pension cost components for the Medicare segment. The contractor must use the separate
calculation method if its result is materially different from that of the allocation method.


1
  We performed a separate review of the allowability of pension costs for the DMERC segment (A-07-11-00367,
issued March 12, 2012) of HealthNow. Unless otherwise noted, all subsequent references to Medicare pension costs
and reimbursements in the body of this report relate to the Medicare Part B segment.


HealthNow New York, Inc., Pension Costs Claimed (A-07-13-00426)                                                1
HOW WE CONDUCTED THIS REVIEW

We reviewed $65,915 of pension costs claimed by HealthNow for Medicare reimbursement on
its Final Administrative Cost Proposals (FACPs) for FYs 2007 through 2009.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.

                                               FINDING

HealthNow claimed pension costs of $65,915 for Medicare reimbursement; however, we
determined that the allowable CAS-based pension costs during this period were $89,266. The
difference, $23,351, represented allowable Medicare pension costs that HealthNow did not claim
on its FACPs for FYs 2007 through 2009. HealthNow did not claim these allowable Medicare
pension costs primarily because it incorrectly calculated the CAS pension cost for FY 2007.

CLAIMED PENSION COSTS

HealthNow submitted Medicare pension costs of $65,915 for Medicare reimbursement on its
FACPs for FYs 2007 through 2009. We calculated the allowable Medicare pension costs based
on separately computed CAS-based pension costs for the Medicare segment and the Other
segment in accordance with CAS 412 and 413. For details on the Federal requirements, see
Appendix B.

ALLOWABLE PENSION COSTS NOT CLAIMED

We determined that the allowable CAS-based pension costs for FYs 2007 through 2009 were
$89,266. Thus, HealthNow did not claim $23,351 of allowable Medicare pension costs on its
FACPs for this time period. This underclaim occurred primarily because HealthNow incorrectly
calculated the CAS pension cost for FY 2007.

The table on the following page compares allowable CAS-based pension costs with the pension
costs claimed on HealthNow’s FACPs and reflected in its accounting documents. Appendix C
contains additional details on allowable pension costs.




HealthNow New York, Inc., Pension Costs Claimed (A-07-13-00426)                                2
         Table: Comparison of Allowable Pension Costs and Claimed Pension Costs

                                       Medicare Pension Costs
                                    Allowable          Claimed by
                  Fiscal Year       Per Audit          HealthNow            Difference
                     2007               89,266                61,064               28,202
                     2008                    0                 4,833              (4,833)
                     2009                    0                   18 2                (18)
                     Total             $89,266               $65,915             $23,351

                                        RECOMMENDATION

We recommend that HealthNow revise its FACPs for FYs 2007 through 2009 to claim additional
Medicare pension costs of $23,351.

                                       AUDITEE COMMENTS

In written comments on our draft report, HealthNow agreed with our findings and stated that it
would net our recommendation with other amounts due to and from the Federal Government
during its global settlement of outstanding audits.

HealthNow’s comments are included in their entirety as Appendix D.




2
 HealthNow included pension costs of $18 in its termination vouchers submitted to CMS during the period of
September through December 2008. Therefore, we have included these pension costs in our comparison as they
were claimed during FY 2009.


HealthNow New York, Inc., Pension Costs Claimed (A-07-13-00426)                                              3
                     APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed $65,915 of pension costs that HealthNow claimed for Medicare reimbursement on
its FACPs for FYs 2007 through 2009.

Achieving our objective did not require that we review HealthNow’s overall internal control
structure. We reviewed the internal controls related to the pension costs claimed for Medicare
reimbursement to ensure that the pension costs were allocable in accordance with the CAS and
allowable in accordance with the FAR.

We conducted our audit work in April 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed the portions of the FAR, CAS, and Medicare contracts applicable to this audit;

    •   reviewed information provided by HealthNow to identify the amount of pension costs
        claimed for Medicare reimbursement for FYs 2007 through 2009;

    •   used information that HealthNow’s actuarial consulting firms provided, including
        information on assets, liabilities, normal costs, contributions, benefit payments,
        investment earnings, and administrative expenses;

    •   examined HealthNow’s accounting records, pension plan documents, annual actuarial
        valuation reports, and Department of Labor/Internal Revenue Service Forms 5500;

    •   determined the extent to which HealthNow funded CAS-based pension costs with
        contributions to the pension trust fund and accumulated prepayment credits;

    •   engaged the CMS Office of the Actuary to calculated the allocable pension costs based
        on the CAS (the calculations were based on separately computed CAS-based pension
        costs for the Medicare segment and the Other segment);

    •   reviewed the CMS actuaries’ methodology and calculations; and

    •   provided the results of our review to HealthNow officials on July 15, 2013.

We performed this review in conjunction with our audit of HealthNow’s pension segmentation
(A-07-13-00425) and used the information obtained during that audit during this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain


HealthNow New York, Inc., Pension Costs Claimed (A-07-13-00426)                                   4
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.




HealthNow New York, Inc., Pension Costs Claimed (A-07-13-00426)                                5
   APPENDIX B: FEDERAL REQUIREMENTS RELATED TO REIMBURSEMENT
                         OF PENSION COSTS

FEDERAL REGULATIONS

Federal regulations (FAR 31.205-6(j)) address allowability of pension costs and require that
Medicare contractors fund the pension costs assigned to contract periods by making
contributions to the pension plan.

Federal regulations (CAS 412) (as amended) address the determination and measurement of
pension cost components. This regulation also addresses the assignment of pension costs to
appropriate accounting periods.

Federal regulations (CAS 413) (as amended) address the valuation of pension assets, allocation
of pension costs to segments of an organization, adjustment of pension costs for actuarial gains
and losses, and assignment of gains and losses to cost accounting periods.

MEDICARE CONTRACTS

The Medicare contracts address the determination and allocation of pension costs. The contracts
state: “The calculation of and accounting for pension costs charged to this agreement/contract
are governed by the Federal Acquisition Regulation and Cost Accounting Standards 412 and
413.”




HealthNow New York, Inc., Pension Costs Claimed (A-07-13-00426)                                    6
                            APPENDIX C: ALLOWABLE MEDICARE PART B PENSION COSTS FOR
                           HEALTHNOW NEW YORK, INC., FOR FISCAL YEARS 2007 THROUGH 2009

                                                                         Total         Other        Medicare      Total
          Date                          Description                     Company       Segment       Segment      Medicare

          2006           PY Allocable Pension Cost                 1/                 $3,964,991     $471,123
                         Medicare LOB* Percentage                  2/                      0.84%       68.72%
          2006           PY Allowable Pension Cost                 3/                     $33,306     $323,756

          2007           Contributions                             4/          $0            $0            $0
                         Discount for Interest                     5/          $0            $0            $0
    January 1, 2007      Present Value Contributions               6/          $0            $0            $0
                         Prepayment Credit Applied                 7/          $0            $0            $0
                         Present Value of Funding                  8/          $0            $0            $0

    January 1, 2007      CAS Funding Target                        9/          $0             $0           $0
                         Percentage Funded                        10/                      0.00%        0.00%
                         Funded Pension Cost                      11/                         $0           $0
                         Allowable Interest                       12/                         $0           $0
                         PY Allocable Pension Cost                                            $0           $0
                         Medicare LOB* Percentage                                          1.00%       78.50%
          2007           PY Allowable Pension Cost                                             $0           $0

          2007           FY Allowable Pension Cost                13/                    $8,327       $80,939      $89,266




                                                                         Total         Other        Medicare      Total
          Date                          Description                     Company       Segment       Segment      Medicare

          2008           Contributions                                  $2,700,000    $2,700,000           $0
                         Discount for Interest                            ($97,100)     ($97,100)          $0
    January 1, 2008      Present Value Contributions                    $2,602,900    $2,602,900           $0
                         Prepayment Credit Applied                              $0            $0           $0
                         Present Value of Funding                       $2,602,900    $2,602,900           $0

    January 1, 2008      CAS Funding Target                                    $0             $0           $0
                         Percentage Funded                                                 0.00%        0.00%
                         Funded Pension Cost                                                  $0           $0
                         Allowable Interest                                                   $0           $0
                         Allocable Pension Cost                                               $0           $0
                         Medicare LOB* Percentage                                          1.15%       62.31%
          2008           PY Allowable Pension Cost                                             $0           $0

          2008           FY Allowable Pension Cost                                           $0            $0          $0

          2009           FY Allowable Pension Cost                14/                        $0            $0          $0

   * Line of business.




HealthNow New York, Inc., Pension Costs Claimed (A-07-13-00426)                                                             7
ENDNOTES

 1/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes. We obtained the
    2006 plan year (PY) allocable pension cost from our prior review (A-07-11-00364), issued March 7, 2012.

 2/ We calculated allowable pension costs of the Medicare and Other segments based on the Medicare line of business (LOB)
    percentage of each segment. We determined the Medicare LOB percentages based upon information provided by HealthNow.

 3/ We computed the PY allowable pension cost as the PY allocable pension cost multiplied by the calendar year Medicare LOB
    percentage.

 4/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form 5500 reports. The
    contributions included deposits made during the PY and accrued contributions deposited after the end of the PY but within the
    time allowed for filing tax returns. We determined the contributions allocated to the Medicare segment during the pension
    segmentation review (A-07-13-00425). The amounts shown for the Other segment represent the difference between the Total
    Company and the Medicare segment.

 5/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year to discount the
    contributions back to their beginning-of-the-year value. For purposes of this Appendix, we computed the interest as the difference
    between the present value of contributions (at the CAS valuation interest rate) and actual contribution amounts.

 6/ The present value of contributions is the value of the contributions discounted from the date of deposit back to the first day of the
    PY. For purposes of this Appendix, we deemed deposits made after the end of the PY to have been made on the final day of the
    PY, consistent with the method established by the Employee Retirement Income Security Act prior to the implementation of the
    Pension Protection Act.

 7/ A prepayment credit represents the accumulated value of premature funding from the previous year(s). A prepayment credit is
    created when contributions, plus interest, exceed the end-of-year CAS funding target. A prepayment credit is carried forward, with
    interest, to fund future CAS pension costs.

 8/ The present value of funding represents the present value of contributions plus prepayment credits. This is the amount of funding
    that is available to cover the CAS funding target measured at the first day of the PY.

 9/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of the FAR 31.205-
    6(j)(2)(i).

10/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the PY. Because any
    funding in excess of the CAS funding target is accounted for as a prepayment in accordance with CAS 412.50(c)(1), the funded
    ratio may not exceed 100 percent. We computed the percentage funded as the present value of funding divided by the CAS
    funding target. For purposes of illustration, the percentage of funding has been rounded to four decimal places.

11/ We computed the funded CAS-based pension cost as the CAS funding target multiplied by the percent funded.

12/ We assumed that interest on the funded CAS-based pension cost, less the prepayment credit, accrues in the same proportion as the
    interest on contributions bears to the present value of contributions. However, we limited the interest in accordance with FAR
    31.205-6(j)(2)(iii), which does not permit the allowable interest to exceed the interest that would accrue if the CAS funding target,
    less the prepayment credit, were funded in four equal installments deposited within 30 days after the end of the quarter.

13/ We converted the PY allowable pension cost to an FY basis (October 1 through September 30). We calculated the FY pension
    costs as 1/4 of the prior year’s costs plus 3/4 of the current year’s costs. In accordance with CAS 412 and 413, the total Medicare
    allowable pension costs charged to the Medicare contract consisted of the Medicare segment’s direct pension costs plus Other
    segment pension costs attributable to indirect Medicare operations.

14/ HealthNow terminated its Medicare contract on August 31, 2008. The effective closing date for the Medicare segment was January
    1, 2009. Therefore, we calculated the FY 2009 pension cost as 1/4 of the prior year’s cost.

HealthNow New York, Inc., Pension Costs Claimed (A-07-13-00426)                                                                             8
                                      APPENDIX D: AUDITEE COMMENTS




               HealthNO\,Il/Si
               257 West Genesee Street • Buffalo, New Yorl< 14202



               September 18, 2013

               Mr. Patrick J. Cogley
               Regional Inspector General, Office of Audit Services
               Region VII
               601 East 121h Street
               Room 0429
               Kansas City, Missouri 64106

               Re :       Report Number: A-07-13-00426

               Dear Mr. Cogley:

               This letter is in respon se to the U.S. Department of Health & Human Services, Office of
               Inspector General, Office of Audit Services' draft report entitled " HealthNow New York
               Inc. Did Not Claim Some Allowable Medicare Part 8 Pension Costs for the Fiscal Years
               2007 Through 2009". HealthNow New York Inc. (HealthNow) has reviewed the draft
               report in conjunction w ith our actuaries at Hooker and Holcombe, Inc. Following are
               comments regarding the specific findings.

                      •   HealthNow agrees with the findings stated in the draft audit report on pages 2
                          and 3.

               We understand there will be a global sett lement of all HealthNow's outstanding audits
               and we will net this recommendation with other amounts due t o/from the Federa l
               Government at that time. We cannot revise the FACP since we are no longer a Part B
               contractor.

               Health Now would like to thank the audit team for their professionalism and recognition
               of the ongoing operation during the audit.

                If you have any questions, please contact me at 716.887.6922.


                S(e~~ly,
               ,2f~~i-0'-f../! .                          tJ I l fl
                Executive Director CFO,                   edicare Operati on
                MedUS Services, ll

                cc:       Amy M. Arena
                          Catherine M. Campbell
                          Christopher l ea rdini
                          Carmen l. Snell, Esq.




HealthNow New York, Inc., Pension Costs Claimed (A-07-13-00426)                                            9
